BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1587
STATE OF LOUISIANA,

Petitioner,
V.

TAZIN ARDELL HILL,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief in Support of the Petition for Writ
of Certiorari contains 2,885 words, excluding the parts
of the Brief that are exempted by Supreme Court Rule
33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 25, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
r 0bru;:ir y 14, 2023

